     Union Pacific Railroad
  Diesel Fuel and Fuel Handling
June 1995 through December 1999


       Final Report
                                                     NATIONAL RAILROAD PASSENGER CORPORATION
                                                             10 G Street NE, 3W300, Washington , DC 20002




  Date      August 24, 2009                  From
                                                      #~:
                                                     ~frl~W                 i, Deput . ' 7

                                                       Office ofInspector General -
    To      Richard Phelps             Department
                                                       Audits
                                           Subject     UP Diesel Fuel and Fuel Handling,
                                                       June 1995 through December 1999
                                                       - Final Report
                                                cc     Lorraine A. Greene, IG


The Office ofInspector General has completed a review of Union Pacific Railroad -
Diesel Fuel and Fuel Handling costs. The objectives of this review were to determine
whether the monthly billings for diesel fuel and fuel handling items submitted by the UP
were accurate, valid, reasonable, and in compliance with the operating agreement and
contract amendments between Amtrak and the UP. The audit covered the period from
June I, 1995 through December 31 , 1999.

The results of the audit were presented to you in the draft repoli along with
supplementary audit schedules. Since your response was incorporated into this report, no
formal response to the final report is required.

Amtrak OIG is required to make this repoli available to the public under the Inspector
General Reform Act of2008, 110 P.L.409; 122 Sta1.4302. To the extent that you believe
this report contains confidential or proprietary information that should be withheld from
public release, you must take the following actions no later than September 7, 2009: I)
highlight any words or phrases recommended for redaction; and, 2) provide a written
detailed justification for each of your recommendations. If you do not provide written
recommendations by September 7.2009, the report will be made publicly available
without your redaction on the date specified on the repOli.

Distribution:
Lois Cunning
S. Young
File
                          Union Pacific Railroad
                       Diesel Fuel and Fuel Handling
                     June 1995 through December 1999

                                   Final Report



                                Report Addrellsed To:

                                   Richard Phelps
                           Vice Pl'ellident, Tl'ansportation
                           60 Massachusetts Avenue, N.E
                              Washington, DC 20002



    This report is preparedfor the above addressee(s) and includes privileged and
confidential information. As SlIch, this report may not be released to any organization
  olltside Amtrak or to any internal department without the approval ofthe OjJIce of
                                  Inspector General.


                                  Report Issued By:

           NATIONAL RAILROAD PASSENGER CORPORATION
              OFFICE OF INSPECTOR GENERAl, - AUDITS
                         10 G STREET, N.E.
                      WASHINGTON, DC 20002

                       DATE OF REPORT: August 24,2009
                         REPORT NUMBER: 506-2009

                           .I




   This document shall become available to the public on September 21, 2009.
                                    Union Pacific Railroad

                               Diesel Fuel and Fuel Handling

                             June 1995 through December 1999

                                     Executive Summary


This report summarizes the audit results of costs billed by the Union Pacific Railroad Company (UP)
for diesel fuel and fuel handling for the period June 1, 1995 through December 31, 1999. The
objective of this review was to determine whether the monthly billings submitted by the UP for
diesel fuel and fuel handling were accurate, valid, reasonable and in compliance with the operating
agreement and contract amendments between Amtrak and the UP.

Based upon the fieldwork completed, we identified and presented to the UP a total of $65,878 in
questioned costs related to inappropriate labor costs that were billed under diesel fuel (Item 2). We
questioned UP's billing oflabor costs because such costs represent intermediate point servicing costs
(Item 4) that was discontinued, effective March 1, 1993, per Amendment Agreement Change (ACC)
UP-15R. However, the UP continued to inappropriately bill Amtrak for the labor charges from June
1,1995 through June 30, 1997.

The UP agreed with our finding, and we concurred with the railroad's offer of$65,878 as settlement
for the audit finding.

Amtrak Transpol1ation Operations Management indicated that it will proceed with collection of the
settlement amount of$65,878 once the settlement language is agreed upon by the UP.
                                   Union Pacific Railroad
                                Diesel Fuel and Fuel Handling
                              June 1995 through December 1999

                                           Final Report # 506-2009

                                       TABLE OF CONTENTS

                                                                                                                       PAGE

I.     BACKGROUND ................................................................................................... 1

II.    OBJECTIVE ......................................................................................................... 1

III.   SCOPE ................................................................................................................... 2

IV.    METHODOLOGY ............................................................................................... 2

V.     EVALUATION OF INTERNAL CONTROLS ................................................. 2

VI.    PRIOR AUDIT COVERAGE .............................................................................. 2

VII.   FINDINGS AND RECOMMENDATIONS ....................................................... 3

       Andit identified $65,878 in inappropriate labor costs billed under
       Item 2- Diesel Fnel ................................................................................................ 3
Union Pacific Railroad - Diesel Fuel and Fuel Handling, June 1995 tlu'ough Decembel' 1999
                                                 Final Report                                      Report # 506-2009


I.       BACKGROUND

The National Railroad Passenger Corporation (Amtrak) and the Union Pacific Railroad
Company (UP) entered into their Third Amendment Agreement, effective March 1, 1990, to
incorporate the applicable provisions with respect to the services and use of facilities provided by
Railroad (UP) to Amtrak. The agreement between the UP and Amtrak states that the Railroad
agrees to provide Amtrak with the use offacilities and requested services for or in conjunction
with the operation of Amtrak's services over Rail Lines of the Railroad, and sets out certain
standards for operations, including the requirement that UP provide services in an economic and
efficient manner.

Section5.2B of the agreement contains
provisions allowing Amtrak to review and
evaluate UP's operations, performance and
costs. UP is required under Section 5.2.C to
maintain suppOiting accounting, operating, and
mechanical records which are to be available
for inspection and/or copying. Such records are
to be maintained and accumulated on a
location-by-location basis with retention
periods of no less than 36-months 1•

Diesel fuel and fuel handling are reimbursable costs that are subject to review under Section
5.2.B. Appendix IV of the agreement details the basis of how diesel fuel (ltem2) and fuel
handling (Item 3) costs should be charged. These costs remain the same until a change is agreed
upon between the UP and Amtrak, which is usually accomplished under an Amendment
Agreement Change (AAC).

For the period from June 1995 through June 1997, Amtrak paid UP a total of$I,997,364 ' billed
under the diesel fuel and filel handing accounts.

II.      OBJECTIVE

Our objectives were to determine whether the monthly billings submitted by the UP for diesel
fuel and fuel handling were accurate, valid, reasonable, and in compliance with the operating
agreement and contract amendments between Amtrak and the UP.




I Per Seclion 5.2.C of the agreement, the specificalion of the retention period shall not limit NRPC's right to review.

The Office Inspector General's ability to audit and responsibility may not be limited by the specific terms of the
contract.
, For the audit period from June 1995 through December 1999, we did not observe any UP diesel fuel billings after
June 1997.

                                                     Page I of I
Union Pacific Railroad - Diesel Fuel and Fuel Handling, June 1995 through December 1999
                                           Final Report                             Report # 506-2009

III.      SCOPE

The scope of our audit encompassed the UP billing period from June 1, 1995 through December
31, 1999 and included the examination of UP and Amtrak records, such as operating agreements,
billing statements (Greenbills), fuel records, and other records that impact the billing of diesel
fuel costs.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perfOlm the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on om audit objectives. We believe that the evidence obtained provides a reasonable basis
for om findings and conclusions based on our audit objectives.


IV.       METHODOLOGY

The methodology used to meet the objectives included the following:

       Reviewed Operating Agreement and Agreement Amendment Changes (AACs) and noted the
       pertinent sections related to diesel fuel costs and the billing ofthe subject accounts;
       Recalculated UP diesel fuel billings and Amtrak payments of the subject charges to
       detelmine accuracy;
       Reviewed all supporting documents provided by the UP related to diesel fuel to determine
       accmacy and validity of the UP billings;
       Calculated the amounts of over or under-billing of SP diesel fuel charges and categorized the
       result totals as unsuppOlted or questioned cost where appropriate; and
       Performed additional audit steps as deemed appropriate.


V.        EVALUATION OF INTERNAL CONTROLS

Audit did not rely on UP's internal control stmctme as substantive tests were performed to
determine the amount of any erroneous and/or excessive billings by the UP.


VI.       PRIOR AUDIT COVERAGE

The prior audit report (Report 97-401) issued on April 7, 1997 by orG - CHI covered the period
from March I, 1990 through May 31, 1995. Among other findings repOlted, the final audit
repOlt identified a minor finding related to diesel fuel. The UP over billed Amtrak $1,534 for
diesel fuel in April and June 1994 related to fueling oflocomotive rentals and non-Amtrak
locomotives.




                                              Page 2 of2
Union Pacific Railroad - Diesel Fuel and Fuel Handling, June 1995 through December 1999
                                        Final Report                             Report # 506-2009

VII.   FINDINGS AND RECOMMENDATIONS

Audit identified $65,878 in inappropriate labor costs billed under Item 2- Diesel Fuel

Per AAC UP-15R, intermediate point servicing'(Item 4)3 costs were discontinued effective
March 1, 1993.

Discussion

For the billing periods from June 1, 1995 through June 30, 1997, the UP pi'ovided diesel fuel at
Hinkle, Pocatello, Rawlins, and Yermo for Amtrak locomotives and billed Amtrak for its
services, As pmt of our audit work, we reviewed UP's monthly billings to determine whether
diesel fuel charges billed to Amtrak were accurate, valid, reasonable, and in accordance with
contract provisions. Based on the results of our review, we noted that the UP had included in the
monthly billings for diesel fuel (Item 2) labor costs that were once billed under Item 4-
Intermediate Point Servicing. The labor costs were billed at a fixed rate per train (multiplied by
the number of trains fueled) for each ofthe four fueling location.

We detennined that the UP continued to bill Amtrak labor charges even after Item 4 was
discontinued effective March 1, 1993. Therefore, we questioned UP's inappropriate billing of
labor costs under Item 2 that totaled $65,878 from June 1995 through June 1997,

UP Response

The UP agreed with our finding and offered $65,878 as settlement for the inappropriate labor
costs identified.

Audit Comment

We concun'ed with the UP's settlement offer in the amount of$65,878.

Recommendation

We recommend that Transportation Operations Management proceeds with the recovery of the
settlement amount of $65,878 once the process of reaching an agreement with the UP on the
settlement letter language is finalized.

Management Response


3 Per agreement, the purpose of Item 4 - Intetmediate Point Servicing was to cover all costs
(including but not limited to labor, travel time, supervision, and equipment) necessary to perform
routine servicing at cet1ain stations.


                                           Page 300
Union Pacific Railroad - Diesel Fuel and Fuel Handling,June 1995 through December 1999
                                      Final Report                           Report # 506-2009

Amtrak TranspOliation Operations Management agreed with the finding and settlement offer of
$65,878. When thefinitl settlement language is agreed upon by the UP, TranspOliation
Operations Management indicated that it would proceed with the collection of the settlement
amount.

This concludes our repoli.


Audit Staff:

Trig Alonso, Senior Auditor
Ani! Gunaratne, Audit Project Supervisor



See See Young
Senior Director - Audits




                                           Page 4 of4
